No. 19-1021
IN THE

&upreme Court of tbe tiniteb 0tateo
MICAH JESSOP, ET AL.,
Petitioners,
v.
CITY OF FRESNO, CALIFORNIA, ET AL,
Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit

PETITION FOR REHEARING

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
1,062 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on June 11, 2020.

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.

